No. 20-659

 

 

In THE
Supreme Court of the United States

LARRY THOMPSON,
Petitioner,
Vv.

PAGIEL CLARK, ET. AL.,
Respondenis.

On Writ of Certiorari to
the United States Court of Appeals
for the Second Circuit

BRIEF FOR THE DISTRICT ATTORNEYS
ASSOCIATION OF THE STATE OF NEW YORK
AS AMICUS CURIAE SUPPORTING
RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,018 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 23, 2021.

th

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
